                                                                           EMPLOYMENT AND TRAINING
                                                                           ADMINISTRATION
U.S. Department of Labor
                           Office of Inspector General – Office of Audit




                                                                           YONKERS WORKFORCE INVESTMENT
                                                                           BOARD’S YOUTH OFFENDER
                                                                           DEMONSTRATION PROGRAM GRANT




                                                                                              Date Issued: February 27, 2006
                                                                                              Report Number: 02-06-205-03-390
Department of Labor                                     FEBRUARY 2006
Office of Inspector General
Office of Audit
                                                        YONKERS WORKFORCE INVESTMENT BOARD (WIB)
                                                        YOUTH OFFENDER DEMONSTRATION PROGRAM
BRIEFLY…                                                (YODP) GRANT


Highlights of Report Number: 02-06-205-03-390, to       WHAT OIG FOUND
the Assistant Secretary for Employment and Training.
                                                        The OIG found that Yonkers WIB:
WHY READ THE REPORT
                                                         •   Served some targeted youth, however, neither
The Youth Offender Demonstration Program                     Yonkers WIB nor its largest CBO contractor,
(YODP) was designed to reduce recidivism and                 Nepperhan Community Center (Nepperhan),
attain long-term employment at livable wage levels           could document that the CBO provided YODP
for youth between 14 and 24 years old, who were              services to targeted youth. Yonkers WIB paid
offenders, gang-involved or at-risk of becoming              Nepperhan $56,938 without ensuring it had the
gang-involved. YODP services include education               staff needed to provide YODP services.
and mental health counseling and referrals,
employment training, sports and recreation, youth        •   Reported performance data to ETA that was not
development, and community service projects.                 documented.
In 2002, Yonkers WIB received a $600,000 YODP           Except for Nepperhan costs, nothing came to our
grant and agreed to enroll an estimated 100             attention that would lead us to believe that costs
targeted youth from the Yonkers area, and offer         were not reasonable and allocable to the grant.
various services, including providing over 50
participants with skills training or work experience,   WHAT OIG RECOMMENDED
and placing 15 in unsubsidized employment.
                                                        The OIG recommended the Assistant Secretary for
WHY OIG DID THE AUDIT                                   Employment and Training recover questioned costs
                                                        of $56,938 and ensure that Yonkers WIB establishes
The audit objectives were to determine if Yonkers       an adequate management information system with
WIB: (1) provided YODP services to Yonkers, New         policies and procedures to manage performance for
York, area youth between 14 and 24 years old who        other DOL grants.
were offenders, gang-involved or at-risk of
becoming gang-involved; (2) adequately                  On January 13, 2006, Yonkers WIB responded to the
documented the occupational skills training,            draft report stating that there may be reason to
subsidized and unsubsidized work experience, and        support administrative findings, but it did not believe
placements that were reported to the Employment         that there is evidence to support the questioned
and Training Administration; and (3) ensured that       costs. However, the response did not specifically
grant costs were reasonable and allocable to the        address the recommendations. Since no additional
grant. Our audit period was June 24, 2002 through       information was provided, the report findings remain
December 30, 2003.                                      unchanged. The recommendations will be resolved
                                                        during DOL’s formal audit resolution process.
READ THE FULL REPORT

To view the report, including the scope,
methodology, and agency response, go to:

http://www.oig.dol.gov/public/reports/oa/2006/02-
06-205-03-390.pdf
                                                                                           Yonkers WIB’s YODP Grant



Table of Contents
                                                                                                                       PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5

    1. Inadequate Documentation to Support If Half of Yonkers WIB’s
       Reported Participants Were Targeted Youth and Received YODP
       Services............................................................................................................... 6

    2. Reported Performance Results Were Not Adequately Documented ............. 9

    3. Except for Nepperhan, Costs Appear Reasonable and Allocable................ 10


APPENDICES ............................................................................................................... 11

    A. Background....................................................................................................... 13

    B. Objectives, Scope, Methodology and Criteria................................................ 15

    C. Acronyms and Abbreviations.......................................................................... 17

    D. Agency Response ............................................................................................ 19




U.S. Department of Labor – Office of Inspector General                                                                        1
Report Number: 02-06-205-03-390
Yonkers WIB’s YODP Grant




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                U.S. Department of Labor – Office of Inspector General
                                                     Report Number: 02-06-205-03-390
                                                                  Yonkers WIB’s YODP Grant


Executive Summary
We conducted a performance audit of the $600,000 Youth Offender Demonstration
Program (YODP) grant (number AF-12404-02-60) awarded to the Workforce Investment
Board (WIB) of Yonkers, New York. The YODP was designed to reduce recidivism and
attain long-term employment at livable wage levels for youth between 14 and 24 years
old, who were offenders, gang-involved or at-risk of becoming gang-involved. YODP
services include education and mental health counseling and referrals, employment
training, sports and recreation, youth development, and community service projects.

For the period June 24, 2002, through December 30, 2004, Yonkers WIB agreed to
enroll an estimated 100 targeted youth from the Yonkers area, and offer various YODP
services, including providing over 50 participants with skills training or work experience,
and placing 15 in unsubsidized employment. As of December 31, 2003, Yonkers WIB
reported 118 youth enrolled, 13 training activities, 29 placements, and Federal outlays
of $290,938.

The audit objectives were to answer whether the Yonkers WIB:

   1. Provided YODP services to Yonkers, New York, area youth between 14 and 24
      years old who were offenders, gang-involved or at-risk of becoming gang-involved,

   2. Adequately documented the occupational skills training, subsidized and
      unsubsidized work experience, and placements that were reported to the
      Employment and Training Administration (ETA), and

   3. Ensured that grant costs were reasonable and allocable to the grant.

Results

1. Yonkers WIB served some targeted youth, but did not document whether half of its
   reported participants were eligible and received YODP services. To implement the
   grant, Yonkers WIB contracted with three community-based organizations (CBOs) to
   expand their existing youth projects to include YODP services. However, Yonkers
   WIB did not effectively monitor the CBOs to ensure the targeted youth participants
   received YODP services. Part 29, Sections 95.47 and 95.51(a) of the Code of
   Federal Regulations (CFR) requires grantees to monitor a contractor’s compliance
   with contract terms, and to monitor and manage each project, program, subaward,
   function or activity supported by the award.

   •   Neither Yonkers WIB nor its largest CBO contractor, Nepperhan Community
       Center (Nepperhan), could document that the CBO provided YODP services to
       targeted youth. Moreover, Yonkers WIB paid contract invoices totaling $56,938
       without ensuring Nepperhan had the staff needed to provide YODP services.
       Nepperhan only fully staffed the project in 4 of 19 months, and there is no


U.S. Department of Labor – Office of Inspector General                                    3
Report Number: 02-06-205-03-390
Yonkers WIB’s YODP Grant

        documentation that the CBO provided YODP services at any time. Therefore, we
        question the $56,938 paid to Nepperhan as of June 30, 2004.

    •   Yonkers WIB’s two other CBO contractors were able to provide documentation
        for their YODP participants. The targeted youth received case management
        services and referrals to various community organizations for training,
        employment, health care, and other social services.

2. Yonkers WIB reported performance data to ETA that was not documented by either
   Yonkers WIB or the CBO contractors. For its 118 participants, Yonkers WIB
   reported 13 training activities and 29 placements. However, documentation from
   Yonkers WIB and the CBOs only supported 2 training activities; none of the 27
   placements tested were adequately supported. The grant solicitation required all
   grantees to “collect and maintain participant records and compile administrative data
   from these projects to document results and accomplishments.”

    Because the grant period expired, we are not making any specific recommendations
    related to participant performance data for YODP. However, since it administers
    other DOL grants, Yonkers WIB should establish an adequate management
    information system with policies and procedures to manage performance. This
    should include verifying performance data with support documentation maintained
    by Yonkers WIB or third parties such as contractors, subgrantees, and vendors.

3. Except as noted under number 1 above, nothing came to our attention that would
   lead us to believe that costs were not reasonable and allocable to the grant.

Recommendations

We recommend the Assistant Secretary for Employment and Training recover
questioned costs of $56,938 and ensure that Yonkers WIB establish an adequate
management information system with policies and procedures to manage performance
for other DOL grants.

Agency Response

On January 13, 2006, Yonkers WIB responded to the draft report and stated that there
may be reason to support administrative findings, but it did not believe that there is
evidence to support the questioned costs. The Yonkers WIB response is included in
Appendix D. The attachments to the response have not been included because the
material was voluminous; did not address questioned costs, the findings or
recommendations; and contains Privacy Act information.

OIG Conclusion

The response from Yonkers WIB did not specifically address the recommendations.
Since no additional information was provided, the report findings remain unchanged.
The recommendations will be resolved during DOL’s formal audit resolution process.

4                                      U.S. Department of Labor – Office of Inspector General
                                                           Report Number: 02-06-205-03-390
                                                                              Yonkers WIB’s YODP Grant


U.S. Department of Labor                        Office of Inspector General
                                                Washington, DC. 20210




                          Assistant Inspector General’s Report


Ms. Emily Stover DeRocco
Assistant Secretary for Employment and Training
U. S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210


We conducted a performance audit of the $600,000 Youth Offender Demonstration
Program (YODP) grant (number AF-12404-02-60) awarded to the Workforce Investment
Board (WIB) of Yonkers, New York. The YODP was designed to reduce recidivism and
attain long-term employment at livable wage levels for youth between 14 and 24 years
old, who were offenders, gang-involved or at-risk of becoming gang-involved. YODP
services include education and mental health counseling and referrals, employment
training, sports and recreation, youth development, and community services projects.
Appendix A provides additional background information on YODP and the Yonkers WIB.

For the period June 24, 2002, through December 30, 2004, Yonkers WIB agreed to
enroll an estimated 100 targeted youth from the Yonkers area, and offer various YODP
services, including providing over 50 participants with skills training or work experience,
and placing 15 in unsubsidized employment. As of December 31, 2003, Yonkers WIB
reported 118 youth enrolled, 13 training activities, 29 placements, and Federal outlays
of $290,938.

The audit objectives were to answer whether the Yonkers WIB:

   1. Provided YODP services to Yonkers, New York, area youth between 14 and 24
      years old who were offenders, gang-involved or at-risk of becoming gang-
      involved,

   2. Adequately documented the occupational skills training, subsidized and
      unsubsidized work experience, and placements that were reported to ETA, and

   3. Ensured that grant costs were reasonable and allocable to the grant.

We conducted our audit in accordance with Government Auditing Standards for
performance audits. Our objectives, scope, methodology and criteria are detailed in
Appendix B.



U.S. Department of Labor – Office of Inspector General                                              5
Report Number: 02-06-205-03-390
Yonkers WIB’s YODP Grant


Objective 1 - Did Yonkers WIB Provide YODP Services to Yonkers, New York,
Area Youth Between 14 and 24 Years Old Who Were Offenders, Gang-involved or
At-risk of Becoming Gang-involved?

Results and Findings – Inadequate Documentation to Support If Half of Yonkers
WIB’s Reported Participants Were Targeted Youth and Received YODP Services

Part 29, Section 95.51(a) of the Code of Federal Regulations (CFR) requires grantees
to manage and monitor each project, program, subaward, function or activity supported
by the award. Under the grant, Yonkers WIB agreed to enroll an estimated 100
targeted youth and provide various YODP services including the following activities and
outcomes.

        •   50 youth – enrolled in skills training
        •   55 youth – enrolled in work experience
        •   15 youth – placed in unsubsidized employment

To implement the grant, Yonkers WIB contracted with three community-based
organizations (CBOs) to expand their existing youth projects by funding additional staff
to provide YODP services. However, the Yonkers WIB failed to develop an adequate
information system to manage performance. In addition, Yonkers WIB did not
effectively monitor the CBOs to ensure the contractors added the staff and provided
YODP services to targeted youth participants. As a result, Yonkers WIB was only able
to document that half of its reported participants (1) were youth from the Yonkers area,
between 14 and 24 years old, and offenders, gang-involved or at risk of becoming gang-
involved; and (2) received YODP services.

Nepperhan Community Center

Neither Yonkers WIB nor its largest CBO contractor, Nepperhan Community Center
(Nepperhan), could document that the CBO provided YODP services to targeted youth.
Yonkers WIB’s grant stated that Nepperhan would establish a YODP project for
offenders and at-risk youth, ages 14 through 17. YODP would add job readiness and
employment services components to Nepperhan’s existing services of academics, case
management, life skills, counseling, and entrepreneurial training. Under a 2-year
contract with Yonkers WIB, Nepperhan agreed to provide two full-time staff: an
employment counselor to provide YODP services and a project aide.

As of June 30, 2004, Yonkers WIB paid Nepperhan $56,938, but did not adequately
monitor the CBO to ensure it complied with contract terms in establishing a YODP
project and serving area youth.

    •   Nepperhan did not have adequate staff to provide the required YODP services.
        Over a 19-month period, the YODP project had a full-time aide, but only had an
        employment counselor for 4 months – August and September 2002, and May
        and June 2003.

6                                      U.S. Department of Labor – Office of Inspector General
                                                           Report Number: 02-06-205-03-390
                                                               Yonkers WIB’s YODP Grant




   •   Nepperhan claimed to have served 60 area youth with 5 placed in unsubsidized
       employment, but neither Yonkers WIB nor Nepperhan provided documentation
       that all 60 youth were from the target group, and that claimed job readiness
       and/or employment services were provided. Nepperhan submitted participant
       data collection forms claiming enrollments and placements, which were not
       documented with participant case files or employment counselor records.

   •   At the audit exit conference, Yonkers WIB provided a list of 45 Nepperhan
       students who would have been eligible for YODP. We compared this list to the
       information obtained from the enrollment data sheets during fieldwork. We
       verified that 27 of the 45 students were enrolled in Yonkers WIB’s YODP project
       as of December 31, 2003. However, Yonkers WIB still could not document that
       these individuals received any YODP job readiness and/or employment services.

Office of Management and Budget (OMB) Circular A-122, Attachment A, states: “to be
allowable . . . costs must be adequately documented.” As a result, we question $56,938
for undocumented Nepperhan YODP costs.

CLUSTER and Renaissance

Yonkers WIB’s two other CBO contractors, Congregations Linked in Urban Strategy to
Effect Renewal, Inc. (CLUSTER), and the Renaissance Project, Inc. (Renaissance),
established YODP projects and served 58 youth from the Yonkers, New York, area.
The YODP projects provided expanded case management services to their existing
services to the target population.

   •   CLUSTER served 20 youth, ages 14 through 24, who were offenders or at-risk
       youth in need of supervision. For CLUSTER, YODP funded an additional case
       manager to double the number of clients the CBO could serve and provide them
       with more extensive aftercare services. Through its case managers, CLUSTER
       provided pre-release planning to address the immediate needs of the offender
       after discharge and to help the youth set definitive goals for reentry into the
       community. In addition, it provided aftercare counseling services for the youth
       and their families; advocacy services with the Board of Education and the
       Department of Social Services; and referrals to substance abuse, mental health
       and related services, as needed by the youth.

   •   Renaissance served 38 older youth, ages 18 through 24, with substance abuse
       problems. YODP funded a Certified Alcohol and Substance Abuse Counselor to
       provide case management and treatment services to the YODP youth mandated
       for treatment by the City of Yonkers, Drug Treatment Court, and sent to
       Renaissance from other social services programs. Renaissance referred youth
       to various community organizations for training, employment, health care, and
       other social services.



U.S. Department of Labor – Office of Inspector General                                   7
Report Number: 02-06-205-03-390
Yonkers WIB’s YODP Grant


Recommendation

1. We recommend the Assistant Secretary for Employment and Training recover from
   Yonkers WIB questioned costs of $56,938 paid to Nepperhan.

Agency Response

Yonkers WIB responded:

      …[A]ctions were taken to remove the former WIB staff contractor and
      cease and [desist] payments to the contractor in question. The City WIB
      staff assumed the operation of the Youth Offender Program and youth
      continued to receive services to ensure no break in service to the at-risk
      youth in the program.

      The research conducted by the City of Yonkers and the Workforce Board
      does not support the questioning of $56,938.00….

      1. Invoices are supported with adequate time and attendance records to
         support the allowability of personnel and related fringe benefit costs;
         and,

      2. The corrective action taken by the City of Yonkers and ETA grant
         modifications to ensure that services continued for the youth who were
         being served supported the viability and allowability of services.

OIG’s Conclusion

The response from Yonkers WIB did not specifically address the recommendations.
Since no additional information was provided, the report findings remain unchanged.
The recommendations will be resolved during DOL’s formal audit resolution process.
With its response, Yonkers WIB provided documentation to support modifications to the
grant agreement and fiscal documentation of costs incurred by Nepperhan. However,
Yonkers WIB has not documented that Nepperhan provided youth participants with
YODP job readiness and/or employment services.




8                                      U.S. Department of Labor – Office of Inspector General
                                                           Report Number: 02-06-205-03-390
                                                                 Yonkers WIB’s YODP Grant


Objective 2 – Did Yonkers WIB Adequately Document the Occupational Skills
Training, Subsidized and Unsubsidized Work Experience, and Placements That
Were Reported to ETA?

Results and Findings - Reported Performance Results Were Not Adequately
Documented

The Solicitation for Grant Applications (SGA/DFA 01-109), Part II-C-1, requires:

       All demonstration sites must collect and maintain participant records and
       compile administrative data from these projects to document results and
       accomplishments, and provide a learning experience for the workforce
       development system, DOL, DOJ and DHHS.

The grantee reported 118 participants, 13 training activities and 29 placements, but did
not have an adequate management information system with policies and procedures to
manage the data. According to Yonkers WIB, the reports to ETA were based on
information received from its contractors on participant data collection forms, which
contain limited data to tally program activities and outcomes. However, neither Yonkers
WIB nor the CBO contractors could match up the data reported with the individual
participant activities and outcomes. We used the data collection forms to recompile the
reported data and verified that the forms identified 118 youth enrolled, but only 4
training activities and 28 placements (1 participant claimed as both). The grantee could
not explain the difference.

Moreover, Yonkers WIB did not verify that the information on the data collection forms
was documented in participant records. We non-statistically selected 30 participants
claimed as trained and placed, including the participant claimed as both. From the
contractors, we requested documentation to support the services and outcomes
recorded on the data collection forms for 30 participants with 4 training activities and
27 placements.

       •   Nepperhan provided no documentation for the five sampled participants that
           the CBO claimed were enrolled and placed.

       •   CLUSTER and Renaissance provided documentation for 25 sampled
           participants. Counselors’ notes mentioned 2 of 4 training activities and the
           22 placements. However, the CBOs did not provide documentation that
           confirmed participants attended and completed training, and/or were
           employed and retained in employment.

Because the grant period expired, we are not making specific recommendations related
to participant performance data for YODP. However, since it administers other DOL
grants, Yonkers WIB should establish an adequate management information system
with policies and procedures to manage performance. This should include verifying



U.S. Department of Labor – Office of Inspector General                                     9
Report Number: 02-06-205-03-390
Yonkers WIB’s YODP Grant


performance data with support documentation maintained by Yonkers WIB or third
parties such as contractors, subgrantees, and vendors.

Recommendation

2. We recommend the Assistant Secretary of Employment and Training ensure that
   Yonkers WIB establishes an adequate management information system with policies
   and procedures to manage performance for other DOL grants.

Agency Response

Yonkers WIB did not comment on this recommendation.

OIG’s Conclusion

The response from Yonkers WIB did not specifically address the recommendation.
Since no additional information was provided, the report findings remain unchanged.
The recommendation will be resolved during DOL’s formal audit resolution process.


Objective 3 - Did Yonkers WIB Ensure That Grant Costs were Reasonable and
Allocable to the Grant?

Results – Except for Nepperhan, Costs Appear Reasonable and Allocable

Except as noted under Objective 1, nothing came to our attention that would lead us to
believe that costs were not reasonable and allocable to the grant.




Elliot P. Lewis
July 2004




10                                    U.S. Department of Labor – Office of Inspector General
                                                          Report Number: 02-06-205-03-390
                                                         Yonkers WIB’s YODP Grant




Appendices




U.S. Department of Labor – Office of Inspector General                        11
Report Number: 02-06-205-03-390
Yonkers WIB’s YODP Grant




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                              U.S. Department of Labor – Office of Inspector General
                                                    Report Number: 02-06-205-03-390
                                                               Yonkers WIB’s YODP Grant


                                                                          APPENDIX A
BACKGROUND

At congressional direction, DOL and the Department of Justice (DOJ) have funded
grants under the Youth Offender Demonstration Program (YODP) since 1998. The
grants provide services to youth (ages 14 to 24) who are offenders, gang-involved, or at
risk of becoming gang-involved. YODP’s primary goals are to enhance youth
functioning, decrease recidivism, and promote enduring workforce participation.

Youth Offender Demonstration Programs

In 2002, ETA awarded 29 YODP grants, totaling $31.5 million. Grants awarded in this
third round of competition place particular emphasis on enhancing existing case
management, treatment, youth development, family involvement and support, and job
placement services throughout the employment search continuum, i.e., from the
beginning of employment search until well after obtaining employment.

YODP grants projects operate in heavily impoverished communities in need of
comprehensive community-wide approaches to assist YODP’s offenders and are
required to expand services in each of three areas: 1) gang prevention and suppression
activities; 2) alternative sentencing for offenders; and 3) aftercare and case
management. Services must include education and mental health counseling and
referrals, employment training, sports and recreation, youth development, and
community services projects designed to reduce recidivism and attain long-term
employment at livable wage levels. In addition, all grantees must collect and maintain
participant records and administrative data, and agree to participate in a separately
funded evaluation to identify effective practices, and disseminate these practices to
other communities.

Yonkers Workforce Investment Board (WIB)

Yonkers WIB received a Youth Offender demonstration grant (AF-12404-02-60) in the
amount of $600,000, to provide youth offenders, gang members and at-risk youth with
employment and developmental activities for the period June 24, 2002, through
December 30, 2004. Under the grant, Yonkers WIB agreed to enroll an estimated 100
targeted youth and provide various YODP services including the following activities and
outcomes:

       •   50 youth – enrolled in skills training
       •   55 youth – enrolled in work experience
       •   15 youth – placed in unsubsidized employment

Yonkers WIB oversees the strategic planning and coordination of all workforce
development programs within the local workforce area that are funded through the U.S.
Department of Labor’s Workforce Investment Act.


U.S. Department of Labor – Office of Inspector General                                13
Report Number: 02-06-205-03-390
Yonkers WIB’s YODP Grant




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                              U.S. Department of Labor – Office of Inspector General
                                                    Report Number: 02-06-205-03-390
                                                                 Yonkers WIB’s YODP Grant


                                                                            APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

Objectives

The audit objectives were to answer whether the Yonkers WIB:

   1. Provided YODP services to Yonkers, New York, area youth between 14 and 24
      years old who were offenders, gang-involved or at-risk of becoming gang-
      involved,

   2. Adequately documented the occupational skills training, subsidized and
      unsubsidized work experience, and placements that were reported to ETA, and

   3. Ensured that grant costs were reasonable and allocable to the grant.

Scope

Our performance audit was conducted in accordance with Government Auditing
Standards issued by the Comptroller General of the United States and included such
tests as we considered necessary to satisfy the audit’s objectives. We audited the
YODP project operated by Yonkers WIB under a grant agreement (number
AF-12404-02-60) for the period June 24, 2002, through December 31, 2003. Audit
fieldwork was conducted June 15, 2004, through July 1, 2004, at grantee and
contractors offices in Yonkers, New York. Results were discussed with Yonkers WIB’s
grant management on July 1, 2004, and an exit conference was held on November 2,
2005. Yonkers WIB responded to the draft report on January 13, 2006.

As of December 31, 2003, Yonkers WIB reported cumulative enrollments of 118 youth
and cumulative net Federal outlays of $290,938. Our audit focused on key performance
measures for occupational training and placements, specifically: skills training, college,
subsidized and unsubsidized work experience, and placements in unsubsidized
employment. As of December 31, 2003, Yonkers WIB reported 13 training activities
and 29 placements for those key measures. We selected 97 percent of participants
receiving training activities and placements for testing.

We also obtained financial data through June 30, 2004, to determine the cumulative
effect for our reportable findings through the end of fieldwork. As of June 30, 2004,
Yonkers WIB reported cumulative Federal outlays of $426,882, of which $135,944 were
incurred during the period January 1, 2004, through June 30, 2004.

Methodology

We obtained an understanding of internal controls through inquiries with appropriate
personnel, inspection of relevant documents, and observations of Yonkers WIB’s
operations. The nature and extent of our testing was based on the auditor’s judgment.



U.S. Department of Labor – Office of Inspector General                                  15
Report Number: 02-06-205-03-390
Yonkers WIB’s YODP Grant


We interviewed staff from ETA, reviewed the grant solicitation and the grant agreement,
as amended, to determine the requirements and performance measures of the grant.
To assess project implementation and participant targeting, we interviewed staff and
reviewed board minutes, data sheets, counselors’ notes, memoranda of understanding
between partners, and contracting documents with the three CBOs. We reviewed
counselors’ notes and enrollment, assessment, and training documents from participant
case files supporting performance reported for the period ending December 31, 2003,
and tested whether the performance goals were tracked, verifiable, and reported.

As of December 31, 2003, Yonkers WIB reported 118 participants enrolled with 13
training activities and 29 placements. Yonkers WIB did not have a participant listing, so
we compiled a list from the participant data sheets submitted by the CBOs. Based on
the data sheets, 118 participants were enrolled but only 4 participants received training
and 28 were placed (1 participant was trained and placed). We non-statistically
selected 30 of the 31 participants who were trained and/or placed and compared
reported data for eligibility, enrollment, training and placement, to documentation in the
participant case files to verify there was adequate support for eligibility and the activities
found in the compilation.

As of December 31, 2003, Yonkers WIB reported cumulative net Federal outlays of
$290,938. To assess reasonableness and allocability of costs, we interviewed staff and
reviewed the fiscal agent’s Single Audit report, financial status reports, trial balance,
CBO contracts and invoices. We reviewed detailed costs for allocability under Federal
requirements and in comparison to the grant budget. Because the grantee did not
submit an indirect cost proposal, we identified the indirect costs charged during the first
90 days and subsequent charges through June 30, 2004. We analyzed Nepperhan’s
payroll charges on their invoices paid through June 30, 2004 to determine the number
of months that its project was fully staffed and determine the extent of questioned costs.

Criteria

We tested compliance with grant requirements and Federal regulations using the
following criteria:

       •   The Workforce Investment Act (Public Law 105–220; August 7, 1998)

       •   Executed Grant Agreement, as modified (AF-12404-02-60)

       •   Grant Solicitation, “Notice Inviting Proposals for Selected Demonstration
           Projects for Youth Offenders” (SGA/DFA 01-109; June 1, 2001).

       •   29 CFR 95, “Grants and Agreements with Institutions of Higher Education,
           Hospitals, and Other Non-Profit Organizations”

       •   OMB Circular A-122, “Cost Principles for Non-Profit Organizations”


16                                        U.S. Department of Labor – Office of Inspector General
                                                              Report Number: 02-06-205-03-390
                                                                Yonkers WIB’s YODP Grant


                                                                           APPENDIX C
ACRONYMS AND ABBREVIATIONS


       CBO                Community-Based Organization

       CFR                Code of Federal Regulations

       CLUSTER            Congregations Linked in Urban Strategy to Effect Renewal, Inc.

       DHHS               Department of Health and Human Services

       DOJ                Department of Justice

       DOL                Department of Labor

       ETA                Employment and Training Administration

       Nepperhan          Nepperhan Community Center, Inc.

       OIG                Office of Inspector General

       OMB                Office of Management and Budget

       Renaissance        The Renaissance Project, Inc.

       WIB                Yonkers Workforce Investment Board

       YODP               Youth Offender Demonstration Program




U.S. Department of Labor – Office of Inspector General                                17
Report Number: 02-06-205-03-390
Yonkers WIB’s YODP Grant




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                              U.S. Department of Labor – Office of Inspector General
                                                    Report Number: 02-06-205-03-390
                                                         Yonkers WIB’s YODP Grant


                                                                   APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor – Office of Inspector General                        19
Report Number: 02-06-205-03-390
Yonkers WIB’s YODP Grant


                                                                 APPENDIX D




20                         U.S. Department of Labor – Office of Inspector General
                                               Report Number: 02-06-205-03-390
